No. ______

In the Supreme Court of the United States
________
MELVIN BONNELL,
Petitioner,
v.
STATE OF OHIO,
Respondent.
________
On Petition for Writ of Certiorari to
the Supreme Court of Ohio
________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
OFFICE OF THE OHIO PUBLIC DEFENDER
Kimberly S. Rigby [0078245]
Supervising Attorney
Death Penalty Department
Counsel of Record
Erika LaHote [0092256]
Assistant State Public Defender
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Kimberly.Rigby@opd.ohio.gov
Erika.LaHote@opd.ohio.gov
Counsel for Petitioner Bonnell

@112 ﬁvqarente Qlnurt of Clﬂhin

“

‘

-

of Ohio

.

Jllti

sue

State

AW

7-*_3,£!.:<
'

ea:

I

7

or own?

ENTRY

Melvin Bonnell

Upon consideration of thejurisdictional memoranda ﬁled

in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).

further ordered that appellant’s motion to strike memorandum in response to
motion to disqualify the Cuyahoga County Prosecutot’s Office, motion to
appoint the Ofﬁce of the Ohio Attorney General as Special Prosecutor, and motion for
relief pursuant to S.Ct.Prac.R. 4.01 are denied.
It is

jurisdiction,

(Cuyahoga County Court of Appeals; No. 108209)

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found

at http://www.supremecourt.ohio.govlROD/docs/

A-1

20211

saum"rr:"-

Case No. 2020-0210

v.

'0

APPENDIX A

om

CASE ANNOUNCEMENTS
June 17, 2020
[Cite as 06/17/2020 Case Announcements #2, 2020-Ohio-3276.]

APPEALS NOT ACCEPTED FOR REVIEW
2020-0210. State v. Bonnell.
Cuyahoga App. No. 108209, 2019-Ohio-5342. Appellant’s motion to strike
memorandum in response to jurisdiction, motion to disqualify Cuyahoga County
Prosecutor’s Office, motion to appoint Office of Ohio Attorney General as Special
Prosecutor, and motion for relief pursuant to S.Ct.Prac.R. 4.01 denied.
Fischer, J., would deny all the motions as moot.
DeWine, J., would deny the motion to disqualify and the motion to appoint as
moot.
French, J., dissents and would accept the appeal on proposition of law Nos. I
through III.
Donnelly, J., dissents, with an opinion.
Stewart, J., dissents and would accept the appeal and would deny the motion
to disqualify and the motion to appoint as moot.
__________________
DONNELLY, J., dissenting.
{¶ 1} Of all the shortcomings or deficiencies that one might identify in the postconvictionreview process of death-penalty cases, there are two that have been identified as “particularly
problematic: the reluctance of state trial courts to conduct evidentiary hearings to resolve contested
factual issues, and the wholesale adoption of proposed state fact-finding instead of independent
state court decision-making.” Steiker, Marcus & Posel, The Problem of “Rubber-Stamping” in
State Capital Habeas Proceedings: A Harris County Case Study, 55 Hous.L.Rev. 889, 893 (2018).
Those are precisely the two problems involved in this case and presented to this court in this appeal.

A-2

{¶ 2} Despite appellant William Bonnell’s repeated, ardent claims of his actual innocence,
his colorable claims of the state’s mishandling of the evidence in his case, and evidence showing
a conflicting description of the assailant through a recent sworn statement by one of the witnesses
to the 1987 offense who testified at trial, the Cuyahoga County Court of Common Pleas denied
Bonnell’s motion for leave to file a delayed motion for new trial without holding a hearing.
Moreover, the trial court’s decision on the motion was a verbatim repetition of the findings of fact
and conclusions of law that were proposed by the state. The trial court similarly adopted, verbatim,
the state’s proposed findings of fact and conclusions of law in overruling Bonnell’s postconviction
motions in 2005 and 2017.
{¶ 3} An important job that we must perform as a state court of last resort is to exercise our
discretion to review “cases of public or great general interest.” Ohio Constitution, Article IV,
Section 2(B)(2)(e). The problem of giving short shrift to defendants’ postconviction litigation
efforts and rejecting them through judgment entries authored by a prosecuting attorney exists in
many jurisdictions, including Ohio. See Steiker, Marcus & Posel at 893-894; Ulate, The Ghost in
the Courtroom: When Opinions Are Adopted Verbatim from Prosecutors, 68 Duke L.J. 807, 810,
813-814 (2019). One of the worst forms of injustice that our justice system can perpetrate is the
dashing of a person’s cherished right to freedom through the person’s wrongful imprisonment, and
worse yet, wrongful execution. The United States Supreme Court has recognized that in the
context of capital-punishment cases, death is different. Ford v. Wainwright, 477 U.S. 399, 411,
106 S.Ct. 2595, 91 L.Ed.2d 335 (1986); see also State v. White, 132 Ohio St.3d 344, 2012-Ohio2583, 972 N.E.2d 534, ¶ 81 (Lanzinger, J., dissenting). In light of the repeated claims of actual
innocence by capital-defendant Bonnell, the evidentiary problems that his case presents, the
severity of the penalty ordered to be imposed, and the nationwide problem that Bonnell’s
arguments on appeal exemplify, how could we not consider this case to be one of public or great
general interest?
{¶ 4} Because I would accept Bonnell’s jurisdictional appeal, I dissent.

__________________

A-3

State

ofOhio

Case No. 2o20.o21o

,i,

V,

RECONSIDERATION ENTRY

0?

Melvin Bonnell

Cuyahoga County

strike

It is

ordered by the court that the motion for reconsideration in this case

It is

further ordered that appellant’s

motion

to

is

denied.

expand the record and motion

to

memo opposing motion for reconsideration pursuant to Supreme Court Rule of

Practice 4.01 are denied.

(Cuyahoga County Court of Appeals; No. 108209)

Maureen O’Connor

Chief Justice

The Ofﬁcial Case Announcement can be found

at http://www.supremecourt.ohio.gov/ROD/d0cs/

A-4

APPENDIX B

CASE ANNOUNCEMENTS
August 18, 2020
[Cite as 08/18/2020 Case Announcements, 2020-Ohio-4045.]

MERIT DECISIONS WITHOUT OPINIONS
2020-0828. Petric v. Eppinger.
In Habeas Corpus. Sua sponte, cause dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0831. Miller v. Phillips.
In Habeas Corpus. Sua sponte, cause dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
APPEALS ACCEPTED FOR REVIEW
2020-0677. Eighmey v. Cleveland.
Cuyahoga App. No. 108540, 2020-Ohio-1500. Sua sponte, cause held for the
decision in 2020-0341, Lycan v. Cleveland.
O’Connor, C.J., and French, J., would accept the appeal on proposition of law
No. I only.
Kennedy, Fischer, and Stewart, JJ., would not hold the cause.
2020-0705. Maternal Grandmother v. Hamilton Cty. Dept. of Job & Family
Servs.
Hamilton App. No. C-180662, 2020-Ohio-1580.
Fischer and DeWine, JJ., dissent.

A-5

2020-0726. State v. Leegrand.
Cuyahoga App. No. 108626, 2020-Ohio-3179. Sua sponte, cause held for the
decision in 2019-1430, State v. Dowdy.
DeWine, J., would not hold the cause.
Kennedy and Fischer, JJ., dissent.

APPEALS NOT ACCEPTED FOR REVIEW
2020-0359. State v. Reed.
Erie App. Nos. E-18-017 and E-18-018, 2020-Ohio-138.
2020-0509. State v. Kirk.
Cuyahoga App. Nos. 107527 and 107553, 2019-Ohio-3887.
French, J., dissents.
2020-0636. State v. Yanni.
Muskingum App. No. CT2019-0050, 2020-Ohio-1352.
2020-0645. Fleming v. Shelton.
Cuyahoga App. No. 108660, 2020-Ohio-1387. Appellee’s motion to dismiss denied.
Kennedy and Stewart, JJ., would deny the motion as moot.
2020-0662. Curry v. Columbia Gas, Inc.
Franklin App. No. 19AP-618, 2020-Ohio-2693. Appellant’s motion for judgment
on pleadings denied.
Kennedy, J., would deny the motion as moot.
2020-0672. SRS Distrib., Inc. v. Axis Alliance, L.L.C.
Montgomery App. No. 28607, 2020-Ohio-1529.
2020-0673. Noe v. Housel.
Lucas App. No. L-18-1267, 2020-Ohio-1537.
Kennedy, J., dissents.
2020-0674. Total Quality Logistics, L.L.C. v. ATA Logistics, Inc.
Clermont App. No. CA2019-09-071, 2020-Ohio-1553.
2020-0678. Gauthier v. Gauthier.
Warren App. No. CA2018-09-118, 2019-Ohio-4397.

A-6

2020-0679. Gauthier v. Gauthier.
Warren App. Nos. 2018-08-098 and 2018-08-099, 2019-Ohio-4208.
2020-0680. In re Foreclosure of Liens for Delinquent Land Taxes by Action In
Rem v. Parcels of Land Encumbered with Delinquent Tax Liens.
Guernsey App. Nos. 19CA45, 19CA46, 19CA51, and 19CA52.
Kennedy, J., dissents.
2020-0681. Midfirst Bank v. Spencer.
Cuyahoga App. No. 108292, 2020-Ohio-106.
Donnelly, J., dissents and would accept the appeal on proposition of law No. I.
2020-0684. State v. Williams.
Seneca App. No. 13-19-25, 2019-Ohio-5296.
2020-0694. State v. Martre.
Allen App. No. 1-19-82.
2020-0695. Lucas v. Noel.
Medina App. No. 18CA0080-M, 2020-Ohio-1546.
Kennedy, J., dissents.
2020-0696. Sengpiel v. Sengpiel.
Summit App. No. 29563.
Kennedy, J., dissents.
2020-0697. Black v. Girard.
Trumbull App. No. 2019-T-0050, 2020-Ohio-1562.
Kennedy and DeWine, JJ., dissent and would consolidate the cause with 20200698, Black v. Girard.
2020-0698. Black v. Girard.
Trumbull App. No. 2019-TR-0053, 2020-Ohio-1563.
Kennedy and DeWine, JJ., dissent and would consolidate the cause with 20200697, Black v. Girard.
2020-0699. State v. Lacy.
Ashtabula App. No. 2019-A-00058.

A-7

2020-0701. State v. Hart.
Richland App. No. 2019 CA 0086, 2020-Ohio-1640.
Kennedy, J., dissents.
Fischer, J., dissents and would accept the appeal on proposition of law No. II.
2020-0706. Liberty Mut. Ins. Co. v. Three-C Body Shop, Inc.
Franklin App. No. 19AP-775, 2020-Ohio-2694.
2020-0707. State v. Lucas.
Cuyahoga App. No. 108436, 2020-Ohio-1602.
Fischer, J., dissents and would accept the appeal on proposition of law Nos. I
through III.
Donnelly, J., dissents and would accept the appeal on proposition of law
No. VIII.
2020-0709. State v. Benson.
Guernsey App. No. 19CA000009, 2019-Ohio-4315.
2020-0711. State v. Cammack.
Cuyahoga App. No. 108705, 2020-Ohio-2942.
2020-0712. Christiana Trust v. Berter.
Butler App. No. CA2019-07-109, 2020-Ohio-727.
2020-0714. State v. Copeland.
Cuyahoga App. No. 108785, 2020-Ohio-1621.
2020-0717. State v. Showes.
Hamilton App. No. C-180552, 2020-Ohio-650.
Kennedy and DeWine, JJ., dissent.
Fischer, J., not participating.
2020-0719. McCormick v. Flaugher.
Richland App. No. 2019 CA 0094, 2020-Ohio-2686.
Kennedy, J., dissents.
Fischer and DeWine, JJ., dissent and would accept the appeal on proposition
of law No. I.
2020-0720. O’Donnell v. Northeast Ohio Neighborhood Health Servs., Inc.
Cuyahoga App. No. 108541, 2020-Ohio-1609.

A-8

2020-0725. J.P. v. T.H.
Lorain App. No. 19CA011469, 2020-Ohio-320.
2020-0734. Gregory v. Cuyahoga Cty.
Cuyahoga App. No. 108192, 2020-Ohio-2714.
2020-0745. State v. Everett.
Stark App. No. 2019CA00147, 2020-Ohio-2733.
2020-0775. State v. Simpson.
Montgomery App. No. 28558, 2020-Ohio-2961.
2020-0792. State v. Beem.
Licking App. No. 2019CA00062, 2020-Ohio-2964.
Stewart, J., dissents.
2020-0796. State v. Hays.
Summit App. No. 29506, 2020-Ohio-2919.
Fischer, J., dissents and would accept the appeal on proposition of law No. II.
2020-0801. State v. Dixon.
Cuyahoga App. No. 109162, 2020-Ohio-3038.
Donnelly, J., dissents and would hold the cause for the decision in 2019-1430,
State v. Dowdy.

RECONSIDERATION OF PRIOR DECISIONS
2018-1116. State v. McFarland.
Cuyahoga App. No. 105570, 2018-Ohio-2067. Reported at __ Ohio St.3d __, 2020Ohio-3343, __ N.E.3d __. On motion for reconsideration. Motion denied.
Donnelly and Dorrian, JJ., dissent.
Julia L. Dorrian, J., of the Tenth District Court of Appeals, sitting for
Stewart, J.
2019-1276. State ex rel. Kendrick v. Parker.
Montgomery App. No. 28098. Reported at 159 Ohio St.3d 1441, 2020-Ohio-3677,
149 N.E.3d 510. On motion for reconsideration. Motion denied.

A-9

2019-1546. State ex rel. Miller v. May.
Richland App. No. 19 CA 56, 2019-Ohio-4065. Reported at __ Ohio St.3d __, 2020Ohio-3248, __ N.E.3d __. On motion for reconsideration. Motion denied.
2020-0210. State v. Bonnell.
Cuyahoga App. No. 108209, 2019-Ohio-4065. Reported at 159 Ohio St.3d 1413,
2020-Ohio-3276, 147 N.E.3d 647. On motion for reconsideration. Motion denied.
Appellant’s motion to expand the record and motion to strike memo opposing
motion for reconsideration denied.
French, J., dissents and would grant the motion for reconsideration as to
proposition of law Nos. I through III.
Donnelly, J., dissents and would grant the motion for reconsideration and the
motion to expand the record.
Stewart, J., dissents and would grant the motion for reconsideration.
2020-0377. State ex rel. Townsend v. Gaul.
In Prohibition. Reported at 159 Ohio St.3d 1411, 2020-Ohio-3275, 147 N.E.3d 651.
On motion for reconsideration. Motion denied.
2020-0442. State v. Boayue.
Franklin App. No. 18AP-972, 2020-Ohio-549. Reported at 159 Ohio St.3d 1408,
2020-Ohio-3174, 146 N.E.3d 586. On motion for reconsideration. Motion denied.
Donnelly, J., dissents.
2020-0449. Mowery, Youell & Galeano, Ltd. v. Stewart.
Franklin App. No. 20AP-076. Reported at 159 Ohio St.3d 1412, 2020-Ohio-3275,
147 N.E.3d 650. On motion for reconsideration. Motion denied. Appellant’s
motion for leave to proceed under R.C. 2323.52(F)(2) to file the accompanying
motion for reconsideration denied.
French, J., not participating.
2020-0615. RRL Holding Co. of Ohio, L.L.C. v. Stewart.
Franklin App. No. 20AP-044. Reported at 159 Ohio St.3d 1413, 2020-Ohio-3275,
147 N.E.3d 654. On motion for reconsideration. Motion denied. Appellant’s
motion for leave to proceed under R.C. 2323.52(F)(2) to file the accompanying
motion for reconsideration denied.
Kennedy, J., dissents.
Stewart, J., dissents and would grant the motion for leave.
French, J., not participating.

A-10

^262019
COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA

:

STATE OF OHIO,

;
I

■

I

1

:

Plaintiff-Appellee,

v.

:
:

:
'

No. 108209

I

MELVIN BONNELL,

:

!

;
)

Defendant-Appellant.

:

:

JOURNAL ENTRY AND OPINION
I

JUDGMENT: AFFIRMED
;
RELEASED AND JOURNALIZED: December 26, 2019

Criminal Appeal from the Cuyahoga County Court of Common Pleas
Case No. CR-87-223820-ZA

Appearances:
Micahel C. O’Malley, Cuyahoga County Prosecuting
Attorney, and Christopher D. Schroeder, Assistant
Prosecuting Attorney, for appellee.
Timothy Young, Ohio Public Defender, and Kimberly S.
Rigby and Erika M. Lahote, Assistant State Public
Defenders, for appellant.

LARRY A. JONES, SR., J.:
i

{If 1}

In 1988, defendant-appellant Melvin Bonnell (“Bonnell”) was

sentenced to death after a jury found him guilty of two counts of the aggravated

murder of Robert Bunner (“Bunner”) with felony murder and firearm specifications,
CR87223820-ZA

111813832

A-11

APPENDIX C

I
I

'

I

I

one count of aggravated burglary with firearm and aggravated felony specifications,
I

and recommended a death sentence to the trial court.
{II2}

In the years since, as will be set' forth below, Bonnell has been
I

challenging his convictions and sentence, without success. The record shows (and
has been conceded by the state through the years) that some evidence from the crime

scene was either not collected or preserved, including blood droppings from the back
porch and its railing; vomit located near Bunner’s body; certain fingerprints;

substances on Bonnell’s hands; the contents of Bonnell’s car; and some of the clothes
I

I

Bonnell was wearing on the night of the murder. The failure to collect and preserve
'

'

I

the evidence has been a central challenge made by Bonnell throughout the years.
I

1

{U 3}

Relative to this appeal, in January 2018, Bonnell filed a motion for

leave to file a motion for a new trial, contending that he had new evidence. In
I

January 2019, the trial court denied his motion for leave without a hearing, and
I

adopted plaintiff-appellee’s, the state of Ohio, unopposed proposed findings of fact
I

and conclusions of law. For the reasons that follow, we affirm the trial court’s

judgment.

Factual Background
{H4>

The following facts are summarized from the direct appeal, State v.

Bonnell, Sth Dist. Cuyahoga No. 55927,1989 Ohio App. LEXIS 4982 (Oct. 5,1989).
{H 5}

As mentioned, the victim was Bunner. He lived with Ed Birmingham

(“Birmingham”) and Shirley Hatch (“Hatch”) i in the upstairs portion of an

apartment on Bridge Avenue in Cleveland.

A-12

Qn November 27, 1986, Bunner,

Birmingham, and Hatch began drinking in their apartment at noon. Bunner and
Hatch continued drinking into the early morning hours of the following day;

Birmingham, who was intoxicated, went to bed at 8:30 p.m. Id. at 2.
1
I

{U 6}

At approximately 3:00 a.m., on November 28, Hatch heard a knock

on the back door. She looked through the peephole on the door, but could not
identify who was there; the person outside identified himself as “Charlie.” Hatch
I

then asked Bunner to help; Bunner opened the door. Id.
1
I
{U 7} When Bunner opened the door, Hatch saw Bonnell standing there

with his hands in his coat pocket. Bonnell walked into the kitchen, uttered an

expletive, and fired twice at Bunner at close range.; Hatch testified that Bonnell then

'
I
turned to her, but she was able to run to Birmingham’s bedroom. Bonnell, Sth Dist.

Cuyahoga No. 55927,1989 Ohio App. LEXIS 4982.
{U 8}

Hatch woke Birmingham up, and Birmingham went into the kitchen
I

where he saw Bonnell sitting on top of Bunner and striking him repeatedly in the

face. Id. at 2-3. Birmingham intervened, pulling Bonnell off Bunner; Birmingham

then threw Bonnell out the door and down the back steps. Hatch called the police.

Id. at 3.
{U 9}

Two of the downstairs tenants testified at trial.

They heard a

commotion at the time in question, and at about the same time they heard the

commotion, they also heard what they believed was someone falling heavily to the

floor. One of them also testified that it sounded like someone had fallen down the
back steps. The neighbors testified that they did not see a car, but heard the sound

A-13

of car wheels “squealing.” Immediately after hearing the “squealing,” one of the

neighbors saw a police car with its lights on pass by the apartment. Id.
{H10} Meanwhile, two Cleveland police officers were patrolling on Bridge

Avenue when, at approximately 3:40 a.m., they saw a blue Chevrolet without
headlights on travelling backward on the street. The police attempted to stop the

car, but the driver, later identified as Bonnell, sped away and a chase ensued.

Bonnell eventually crashed into a funeral home. Bonnell, Sth Dist. Cuyahoga No.
55927,1989 Ohio App. LEXIS 4982.

i

'

I

{U11} One of the officers at the crash scene received an emergency call about
the murder at the apartment and left to respond to that scene. Upon arriving at the

scene, the officer got a description of the assailant and realized that it matched the
person who had crashed the blue Chevrolet into the funeral home, that is, Bonnell.

Bonnell was transported to the hospital, where Birmingham identified him as the
assailant. Id. at 3-4.
{U12} The police searched the crash area and found a .25 automatic pistol.

Test firings of the pistol revealed that it fired the bullets that were removed from
Bunner’s body. Id. at 4.

{U13} Bonnell presented witnesses on his behalf.

The witnesses

corroborated a statement Bonnell had made to the police, that on the day of the
incident, he had been out drinking with a friend, Joe Popil. In his statement, Bonnell

maintained that Popil owned the gun and was driving the blue Chevrolet. According
to Bonnell, Popil stopped at the Bridge Avenue address and entered the apartment

A-14

alone with the weapon. When Popil returned to the car, he put the gun in the glove
compartment. Bonnell stated that he (Bonnell) passed out from the drinking and

did not remember anything thereafter until he woke up in the hospital. According
to Popil, he had been out with Bonnell, but he maintained that he was driven home

at 11:30 p.m., whereupon he got sick from drinking. Bonnell, Sth Dist. Cuyahoga
'
I
No. 55927,1989 Ohio App. LEXIS 4982 (Oct. 5,1989).

Procedural History
{If14} As mentioned, this case has been extensively litigated in the years
since Bonnell was convicted and sentenced. The following is a summation of the
prior history.

Direct Appeal
{U15} In his direct appeal to this court, Bonnell raised 30 assignments of

error challenging his convictions and sentence.

The alleged errors included

challenges to the sufficiency and weight of the evidence, allegations that the state
failed to provide exculpatory or favorable evidence prior to trial, and an allegation
that the trial court erred by denying his motion to suppress an unnecessarily

suggestive line-up. This court found the alleged errors, with the exception of one,

without merit and affirmed the convictions but remanded for resentencing solely on
the aggravated burglary conviction. Id. at 42.

A-15

Appeal to Ohio Supreme Court
{H16} Bonnell appealed to the Ohio Supreme Court, where he presented 29
I

propositions of law.

The court found the “evidence of [Bonnell’s] guilt to be
I

overwhelming,” and affirmed his convictions and sentence. State v. Bonnell, 61
Ohio St.sd 179,183,187,573 N.E.2d 1082 (1991).

Attempted Appeal to United States Supreme Court

{U17} Bonnell attempted to appeal to the United States Supreme Court, but
the court denied his petition for a writ of certiorari. Bonnell v. Ohio, 502 U.S. 1107,

112 S.Ct. 1205,117 L.Ed.2d 444 (1992).

Murnahan
{U18} In November 1992, Bonnell filed an application in this court for

delayed reconsideration pursuant to State v. Murnahan, 63 Ohio St.sd 60, 584
N.E.2d 1204 (1992). In his application, he alleged that 55 acts and omissions by his

appellate counsel rendered counsel ineffective. His application sought relief based

on claims, among others, that the state’s identification witnesses were tainted, some
of the state’s witnesses’ testimony was unreliable and inaccurate, and the state failed

to provide timely discovery.
{U 19} In May 1994, this court denied Bonnell’s application.

State v.

Bonnell, Sth Dist. Cuyahoga No. 55927, see Motion No. 248402. Bonnell appealed
to the Ohio Supreme Court, which affirmed this court, State v. Bonnell, 71 Ohio St.sd

A-16

223,643 N.E.ad 108 (1994), and denied Bonnell’s request for reconsideration. State
v. Bonnell, 71 Ohio St.sd 1459,644 N.E.2d 1031 (1995).

;

Postconviction Proceedings

I

I

{If 20} In 1995, Bonnell filed a postconviction petition in the trial court. In
I
the petition, he claimed 53 grounds on which he sought relief, much of which
revolved around his contention that the state suppressed exculpatory evidence,

either by failing to collect it from the crime scene or failing to preserve what it had

collected; the petition included over 500 pages of supporting information. The

evidence at issue was blood samples, vomit, fingerprints, and other miscellaneous
materials.

{If 21} The state acknowledged that the evidence Bonnell sought had not

been preserved, but maintained that Bonnell’s rights had not been violated.

The

trial court denied the petition without a hearing. The trial court found that Bonnell

failed to establish that there was a due process violation in the lack of preservation
of the evidence because he failed to show that the state acted in bad faith. Bonnell

appealed to this court, and in August 1998, this court affirmed the trial court’s

judgment denying his petition. State v. Bonnell, Sth Dist. Cuyahoga Nos. 69835 and

73177,1998 Ohio App. LEXIS 3943 (Aug. 27,1998). This court found,
The fact that blood was found on the back porch hand railing and on a
green pillow on the back porch is not material. Birmingham had
testified that he witnessed [Bonnell] punching the victim and that
blood was all over the place. He then picked up [Bonnell] and threw
him out of the back door onto the back porch. It is conceivable that the
blood was transferred to these areas by [Bonnell]. Therefore, since

A-17

there is no reasonable probability that this evidence would have
affected the outcome of the trial, it was not material.
Id. at 17. The United States Supreme Court denied certiorari in October 1999.

Bonnell v. Ohio, 528 U.S. 842,120 S.Ct. 111,145 LEd.2d 94 (1999)1

-I

I

J

Habeas Corpus

;

{U 22} In March 2000, Bonnell filed a petition for writ of habeas corpus in

the United States District Court for the Northern^ District of Ohio. He claimed 20
I

areas of alleged constitutional violations, including the state’s suppression of
exculpatory evidence, the state’s failure to preserve exculpatory evidence from the
I

crime scene, the trial court’s failure to suppress the unnecessarily suggestive lineup,
I
I

and he challenged the sufficiency of the evidence. The district court denied Bonnell’s
I

'

petition. Bonnell v. Mitchell, 301 F.Supp.2d 698 (N.D.Ohio 2004). The Sixth

Circuit Court of Appeals affirmed the district court.

Bonnell v. Mitchell, 212

Fed.Appx. 517 (6th Cir.2007).
2004 Application for DNA Testing

{U 23} In October 2004, Bonnell filed an application for DNA testing of the
I
following items: vomit from the kitchen; blood from Bonnell’s car; hairs on a green

pillow; bags that were placed over his hands at the hospital (to determine if the bags
contained gunshot residue); blood from the back stairs, stairwell, and railing; and

testing of any swabs or stains taken from Bonnell’s hands.

A-18

{H 24} The state opposed Bonnell’s application and also, in accordance with

R.C. 2953.75(B),1 filed a report, in which it again acknowledged that, despite a

search, it was “unable to locate any of the items defendant has requested to be

tested.” The state further noted, “[ijndeed, as the State’s objection to DNA testing

1
1
details, Bonnell has argued, and the Courts have recognized for the past ten years
1
I
that this evidence does not exist.” The trial court denied the application, finding that
1
I
none of the materials Bonnell sought to have testeci existed.
2008 Application for DNA Testing

{U 25} In February 2008, Bonnell filed a second application for DNA testing.

I
In addition to the items he sought testing on in his'2004 application, he added to his
I
request testing for blood on the jacket and other clothes he was wearing at the time

in question, and one or two guns recovered by the Cleveland police.

Bonnell

contended that the testing on the jacket “may pinpoint the actual killer.” In his
application, Bonnell stated that “there is no reason to believe that the evidence has

been contaminated or tampered with while in the State’s possession and control.”
{51 26} The jacket had been lost, but in April 2008, the state informed the

trial court that it had located the jacket in this court’s clerk of court files. The parties

then filed a joint motion for DNA testing, which the trial court granted. The jacket
was sent to an agreed-upon independent testing agency, the DNA Diagnostic Center

'R.C. 2953.75 is titled “determinations by prosecuting attorney as to whether
biological material was collected and whether parent sample still exists.” Subsection (B)
requires the state to prepare a report with its determinations.

A-19

in Fairfield, Ohio. The results of the testing revealed that Bunner’s blood was on

Bonnell’s jacket in five different places.
Bonnell’s 2017 Motion for Accounting of Physical Evidence
{U 27} In April 2017, Bonnell filed a motion to compel the state to provide an
1

I

'

I

accounting of the physical evidence in the case; he sought more DNA testing on

other evidence. Pursuant to his request, the state filed another report under R.C.
I

2953.74(B), documenting its efforts to find biological material that could possibly
be DNA tested. The assistant prosecuting attorney handling the matter submitted

an affidavit averring to his efforts searching for evidence.

In short, except for

I

Bonnell’s jacket, which as mentioned had been DNA tested pursuant to Bonnell’s
I

2008 application, the other evidence either could not be located and/or it appeared

;

to have not been preserved.

28} In August 2017, the trial court denied Bonnell’s second request for
DNA testing. The court found the state’s search adequate, but that despite the

search, no other evidence existed. Moreover, the court found that even if any

biological material did exist, Bonnell could not show that any additional DNA testing

would be outcome-determinative. The Ohio Supreme Court upheld the trial court’s
decision, State v. Bonnell, 155 Ohio St.sd 176, 2Oi8-Ohio-4o69,119 N.E.sd 1285,
and denied Bonnell’s motion for reconsideration, State v. Bonnell, 113 N.E.sd 554,

2Oi8-Ohio-4962. The United States Supreme Court denied certiorari. Bonnell v.
Ohio, 139 S.Ct. 2644, 204 L.Ed.2d 289 (2019).

A-20

Judgment at Issue Here: Bonnell’s 2018 Motion for Leave to File a Motion for New
Trial
!

{U 29} Meanwhile, in January 2018, Bonnell filed a motion for leave to file a
I

motion for a new trial in the trial court. In his motion, he contended that the state’s
2017 R.C. 2953.74(B) report gave rise to a renewed failure to preserve evidence claim
I

under Arizona v. Youngblood, 488 U.S. 51,109 S.Ct. 333,102 L.Ed.2d 281 (1988).

He also submitted a 2017 affidavit from eyewitness Hatch, which Bonnell contended

raised discrepancies that should cast doubt on the; convictions; the affidavit was not

a recantation of her trial testimony, however. As stated, the trial court denied the

motion for leave. The state submitted proposed findings of fact and conclusions of
law; Bonnell neither submitted his own proposed findings of fact and conclusions of
law, nor did he oppose the state’s submission. The trial court adopted the state’s

findings of fact and conclusions of law.
{U 30} Bonnell now appeals, raising the following four assignments of error:

I. The trial court abused its discretion when it failed to invoke a due
process analysis and grant Bonnell’s motion for leave to file a motion
for new trial or hold a hearing when the issues Bonnell raised in his
motion for leave to file a motion for new trial and in the accompanying
motion for new trial demonstrated violations of his right to due process.

II. The trial court abused its discretion when it denied Bonnell’s motion
for leave to file a motion for a new trial when the record demonstrated
by clear and convincing proof that Bonnell was unavoidably prevented
from discovering the evidence within 120 days of his conviction.

A-21

III. The trial court abused its discretion when it denied Bonnell’s
motion for leave to file a motion for a new trial when the newly
discovered evidence Bonnell submitted establishes substantive
grounds which require a new trial.
'
I

I

IV. The trial court deprived Bonnell of meaningful review of his motion
for leave to file a motion for new trial where, after previously adopting
erroneous findings, it once again delegated; its judicial function to the
State and; adopted verbatim erroneous proposed findings of fact and
conclusions of law.
;
I

{H 31} Based on these alleged errors, Bonnell seeks a reversal and remand to

the trial court with instructions to (1) grant his motion for leave and permit him to
file his motion for a new trial, or (2) alternatively, hold a hearing on his motion for
leave, or (3) alternatively, revise its findings of fact and conclusions of law.
32} We note that much of Bonnell’s arguments in his brief relate to the

substantive grounds of his request for a new trial: The judgment at issue here was

the denial of his motion for leave to file a motion for a new trial. The motion for
leave is addressed in Bonnell’s second assignment of error; we consider that error
first.2

2See, e.g., State v. Phillips, Sth Dist. Cuyahoga No. 104810, 2O17-Ohio~7i64, U 23,
where this court, in considering a judgment denying the defendant’s motion for leave to
file a motion for a new trial stated that,

Although the state argues on appeal that no Brady violation actually
occurred, its argument puts the proverbial cart before the horse. The proper
place for that discussion is the new trial motion itself — if the court grants
leave to file the motion [after a hearing on remand]. At this point in the
proceedings, it does not matter whether a Brady violation did occur, what
matters is whether [the defendant] can show by clear and convincing
evidence that he was unavoidably prevented from discovering the potential
violation during trial and the 120 days following.

A-22

Law and Analysis

Untimely Motion
{H 33} F°r his second assigned error, Bonnell contends that the trial court
abused its discretion by finding that he failed to show that he was unavoidably

prevented from timely discovering the grounds for his motion for a new trial. The
“new evidence” Bonnell contends he was unavoidably prevented from discovering
was the state’s 2017 R.C. 2953.75(B) “newly discovered” report and “new

statements” made by Hatch in her 2017 affidavit. ■
I

I

{U 34} Crim.R. 33 governs motions for new trials and provides that motions
for new trials based on account of newly discovered evidence must be filed within
120 days of a jury verdict unless the petitioner demonstrates by clear and convincing

proof that he or she was unavoidably prevented from discovering the evidence upon
which he or she must rely. Crim.R. 33(B).

35} A person is unavoidably prevented from discovering evidence if the
person had no knowledge of the existence of the grounds supporting the motion and

could not have learned of the existence in the exercise of reasonable diligence within
the time prescribed by the rule. Phillips, Sth Dist. Cuyahoga No. 104810, 2014Ohio-7164, at 116. Clear and convincing proof

is that measure or degree of proof [that] is more than a mere
“preponderance of the evidence,” but not to the extent of such certainty
as is required “beyond a reasonable doubt” * * * and which will produce
in the mind of the trier of facts a firm belief or conviction as to the facts
sought to be established.

A-23

Cross v. Ledford, 161 Ohio St. 469,120 N.E.ad 118 (1954), paragraph three of the
syllabus.
{U 36} If a petitioner fails to meet this burden, “[r]es judicata bars all

subsequent motions seeking a new trial that are based on claims that were brought
'
I
or could have been brought on direct appeal or in prior motions filed under Crim.R.
1
I
33.” State v. Blalock, Sth Dist. Cuyahoga No. 104773, 2Oi7-Ohio-26s8,136.
'

I
I

’

{U 37} The trial court has sound discretion on whether to grant an
'

!

evidentiary hearing on a defendant’s request for leave to file a delayed motion for

I
I
new trial; we will not disturb the decision absent an abuse of that discretion. State
I

v. Hill, Sth Dist. Cuyahoga No. 102083,2O15-Ohio-1652, H16.
I
{U 38} The extensive record in this case is replete with evidence that Bonnell

had been aware well before the state’s 2017 R.C. 2953.75(B) report of the state of the
evidence. That is, that the items he sought testing on did not exist. The record

demonstrates that this was evident since at least 1995. The following illustrates this:
(1) Bonnell’s March 1995 petition for postconviction relief: he contended that the
state failed to collect and/or preserve certain evidence from the crime scene, and in

the state’s May 1995 response to his petition, the state acknowledged that “blood

samples, vomit, fingerprints, and other miscellaneous materials were not
preserved”; (2) trial court’s October 1995 judgment denying his postconviction

petition: Bonnell failed to “show that the State acted in bad faith in not preserving

the evidence in this case”; (3) 1998 appeal to this court of the denial of his
postconviction petition: Bonnell contended that the state “failed to preserve the

A-24

scene of the homicide and secure exculpatory evidence,” and the state responded
i

i

that his “rights were not violated if blood samples, vomit, fingerprints, and other
I

miscellaneous materials were not preserved”; (4); Bonnell’s 2000 habeas petition:

Bonnell contended that the state “failed to preserve exculpatory evidence from the
1
crime scene,” and in its decision, the federal district court held that he “failed to
establish that the unpreserved or untested evidence is exculpatory”; and (5) state’s
I

2005 R.C. 2953.75(B) report: the state maintained that “Bonnell has argued, and
1
I
the Courts have recognized for the past ten years that this evidence [Bonnell seeks
I

testing on] does not exist,” and the trial court agreed in denying his request.
1

J

{5139} We are not persuaded by Bonnell’s insinuation that destruction or
nonpreservation of evidence in this case was merely a claim he made, without
knowledge of whether that was actually true. The above-mentioned details that he
was made aware that the evidence he sought did not exist. The state’s 2017 R.C.

2953.75(B) report did not disclose anything “new”; rather, it reiterated what had
been a centerpiece of much of the litigation in this case dating back to 1995 — the

evidence Bonnell sought did not exist.3

{5140} We are likewise not persuaded by Bonnell’s contention that Shirley

Hatch’s 2017 affidavit constituted newly discovered evidence that he was
unavoidably prevented from discovering. Bonnell contends that he was unable to

3Further, any contention Bonnell has regarding the adequacy of the state’s search
for the evidence he sought testing on vis-a-vis the testing on his jacket under his 2008
application for testing is misleading. Specifically, he had not previously requested testing
on the jacket. When he did, the state searched for, the jacket, found it, and agreed to
testing, which revealed Bunner’s blood in five different places.

A-25

find Hatch sooner because she moved out of state and changed her last name.
However, the state was able to find Hatch several years earlier through a public

records search on Lexis. Moreover, Bonnell did hot set forth in his motion what
I
I
efforts he made to find Hatch sooner.
;
I
{U 41} In State v. Moore, 7th Dist. Mahoning No. 13 MA 9, 2Oi4-Ohio-358,
H 24, the Seventh Appellate District held:
I

Even though Moore has been incarcerated, he does not explain how he
has been prevented from contacting the affiant, Butler Johnson.
Indeed, it is unreasonable for Moore not to; have attempted to contact
Johnson sooner if he knew that Johnson and Elizabeth Williams had
provided false testimony. Moore was present at his own trial where
Johnson and Elizabeth Williams presumably testified. If he genuinely
knew Johnson’s or William’s testimony to be false, he should have
known that at the time of their testimony. Consequently, it was upon
Moore to exercise reasonable diligence to make efforts to obtain an
affidavit from one of them establishing the fact of their false testimony
and the reasons for it a lot sooner than fifteen years following his
conviction. In other words, Moore did have; knowledge of the existence
of the ground supporting the motion from the time of his trial and,
although he was incarcerated, he could have contacted the witnesses
himself or through representatives and investigated the nature of the
alleged false testimony and the reasons behind it.
(Emphasis sic.)
I

:

{U 42} Like the defendant in Moore, Bonnell has not set forth an adequate

explanation as to why it took him 30 years to find Hatch. On this record, therefore,
I
the trial court properly found that Bonnell failed to show that he was unavoidably
prevented from discovering Hatch’s affidavit.
{U 43} Moreover, both of Bonnell’s grounds on which his request for leave

were based — that “new evidence” showed that the state failed to preserve evidence

A-26

I

and Hatch provided “new evidence” in her affidavit — have already been litigated
and are, therefore, barred under the doctrine of res judicata. Under res judicata, a

defendant is barred from raising an issue in a postconviction relief petition if he or
I

she raised, or could have raised, the issue at trial dr on direct appeal. State v. Cody,

Sth Dist. Cuyahoga No. 102213,2015-0^0-2764, j 16.
I

{U 44} We have already set forth the prior rulings by the courts regarding the

state’s failure to preserve evidence. In regard to Hatch, on direct appeal this court
>

’

1

considered the alleged inconsistencies in her testimony, finding that “[mjinor

inconsistencies which may impeach the accuracy of a witness’ recollection of a

drunken traumatic episode do not warrant grounds for overturning a murder
verdict.” Bonnell, Sth Dist. Cuyahoga Nos. 69835 and 73177,1998 Ohio App. LEXIS

3943, 13 (Aug. 27, 1998). “The defendant’s list of other minutiae to which Hatch
inconsistently testified amounted to immaterial details surrounding the event. As

stated before, even a cursory review of the evidence displays its immateriality.” Id.
at 16. Bonnell continued to raise this claim in his 1995 postconviction relief petition,
federal habeas litigation, and 2018 appeal to the Ohio Supreme Court. It has been
rejected at every turn. Hatch’s averments in her affidavit are not a recantation. They

deal with inconsistencies in her trial testimony vis-a-vis her current recollection of
events — inconsistencies that have been determined to be “immaterial.”

{U45} In light of the above, Bonnell has failed to establish by clear and
convincing evidence that he was unavoidably prevented from discovering the
evidence upon which his motion for leave was based. There was no abuse in the trial

A-27

court’s decision to not have a hearing. The second assignment of error is therefore
I
not well taken, i

;

I
j
I

Adoption of State’s Proposed Findings of Fact and Conclusions of Law
I

{U 46} In his fourth assignment of error, Bonnell challenges the trial court’s

adoption of the state’s proposed findings of fact and conclusions of law. We note
I

that Bonnell did not file his own proposed findings of fact and conclusions of law,
I

I

nor did he object to the state’s submission.

;

<11 47> “A trial court does not err when it adopts a party’s proposed findings
1

I

of fact and conclusions of law as its own if it has thoroughly read the document to
ensure that it is completely accurate in fact and law.” Cody, 8th Dist. Cuyahoga No.

102213, 2015-0^0-2764, at 137, citing State v. Williams, Sth Dist. Cuyahoga No.
'
I
<
99357,2O13-Ohio-27O6, and State v. Thomas, Sth Dist. Cuyahoga No. 87666,2006-

Ohio-6588.

Thus, when a trial court adopts proposed findings of fact and

conclusions of law verbatim, the findings and conclusions are those of the court and

may be reversed only if they are clearly erroneous; Anderson v. Bessemer City, 470
U.S. 564,572,105 S.Ct. 1504, 84 L.Ed.2d 518 (1985); Cody at id.
{U 48} Upon review, we find no error in the trial court’s adoption of the

state’s proposed findings of fact and conclusions of law.

Bonnell has not

demonstrated that the trial court failed to review the record and the documentation
submitted in support of his motion for leave. Further, the trial court judge who
considered his motion for leave was the same judge who considered his 1995 petition

for postconviction relief and both of the applications for DNA testing and, therefore,

A-28

presumably was familiar with the case. Our review of the findings and conclusions
does not show that they are “clearly erroneous.”
i

■

{U 49} In light of the above, Bonnell’s J fourth assignment of error is
'

I

overruled.
{H 50} The second and fourth assignments of error are dispositive of the
I

appeal, and we decline to consider the remaining assignments.

See App.R.

12(A)(1)(c).
I

51} Judgment affirmed.

j

It is ordered that appellee recover from appellant costs herein taxed.
The court finds there were reasonable grounds for this appeal.
1

It is ordered that a special mandate issue out of this court directing the

common pleas Court to carry this judgment into execution.
A certified copy of this entry shall constitute the mandate pursuant to Rule 27
of the Rules of Appellate Procedure.

;

EILEEN T. GALLAGHER, P.J., and
FRANK D. CELEBREZZE, JR., J., CONCUR

A-29

107198712
107198712

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
STATE OF OHIO
Plaintiff

Case No: CR-87-223820-ZA
Judge: TIMOTHY MCCORMICK

MELVIN BONNELL
Defendant

INDICT: 2911.11 AGGRAVATED BURGLARY WITH
SPECIFICATIONS
2903.01 AGGRAVATED MURDER WITH
VIOLENCE SPECIFICATION
2903.01 AGGRAVATED MURDER WITH
VIOLENCE SPECIFICATION
ADDITIONAL COUNTS...

JOURNAL ENTRY
DEFENDANT MELVIN BONNELL'S MOTION FOR LEAVE TO FILE A MOTION FOR NEW TRIAL AND TO DEElyi THE
ATTACHED MOTION FILED INSTANTER IS DENIED.
FINDINGS OF FACT AND CONCLUSIONS OF LAW ATTACHED.
CLERK ORDERED TO SEND A COPY OF THIS ORDER TO:
KIMBERLY RIGBY, ESQ.
KANDRA ROBERTS, ESQ.; OFFICE OF THE OHIO PUBLIC DEFENDER
THE MIDLAND B U1LDING, SUITE 1400
250 EAST BROAD STREET
COLUMBUS OH 43215

N9
O

L-O
i—_ p*4rn

CCP
<_

CHRISTOPHER D. SCHROEDER, ESQ.
OFFICE OF THE CUYAHOGA COUNTY PROSECUTOR
1200 ONTARIO STREET
JUSTICE CENTER - 8TH FLOOR
CLEVELAND OH 441113

o5"

2S

CTO
js.'n

ISJ

n

c

oO
o°

T)

2:22

Fo

—
_<t/>

01/25/2019
CPEFF 01/25/2019 10:04:30 '

OS'S
Judge Signature

HEAR
01/25/2019

A-30

Date

APPENDIX D

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CRIMINAL DIVISION

Case No. CR-87-223820

STATE OF OHIO

JUDGE TIMQTHY P. MCCORMICK

Plaintiff,
v.
MELVIN BONNELL,
Defendant.

FINDINGS OF FACT AND CONCLUSIONS OF LAW

On January 11, 2018, Defendant Melvin Bonnell filed an Motion for Leave to File a

Motion for New Trial. This Court has fully considered Bonnell's motion and all supporting
documentation submitted both in support and in opposition to that motion, as well as all files
and records pertaining to the proceedings in this case. Upon review of the evidence, this
Court hereby issues the following findings of fact and conclusions of law:
FINDINGS OF FACT
1. In the early morning hours of November 28, 1987, 22-year old Robert Bunner was
shot death inside his apartment at 5709 Bridge Avenue on the west side of Cleveland.
2. That same night, Cleveland Police arrested Melvin Bonnell following a high-speed car
chase that ended when Bonnell crashed his car into a funeral home. The Cuyahoga
County grand jury subsequently indicted Bonnell for aggravated murder.

3. On February 22,1988, Bonnell's case proceeded to a jury trial. The jury found Bonnell
guilty of aggravated burglary with a firearm specification, aggravated felony-murder

A-31

with firearm and aggravated burglary specifications, and aggravated murder with
firearm and aggravated burglary specifications. Following the sentencing phase, the
jury unanimously recommended that Bonnell be sentenced to death. On March 29,
1988, the trial court, the Honorable Judge James McMonagle presiding, sentenced
Bonnell to death on both counts of aggravated murder.
<\
4. On February 6, 2008, Bonnell filed an Application for DNA Testing pursuant to R.C.

2953.71 et. seq., seeking testing of the following items:
"Swabs and slides of blood recovered from the crime scehe [sic]; swabs
and slides of blood recovered from my hands, jacket and other clothes;
vomit found in kitchen; blood from my vehicle; hair on green pillow;
plastic bags for gunshot residue; 1 or 2 guns recovered by Cleveland
police."

See Defendant's Application for DNA Testing, p. 2.
5. This Court denied Bonnell's application for DNA testing on August 14, 2017 and
issued findings of fact and conclusions of law in support of that decision.
6. Bonnell appealed to the Supreme Court of Ohio. On October 10, 2018, the Supreme
Court unanimously affirmed this Court's denial of Bonnell's application for DNA
testing. State v. Bonnell, Slip Opinion No. 2018-0hio-4069. The Supreme Court later
denied Bonnell's motion for reconsideration.

1

7. On January 11, 2018, while Bonnell's appeal was pending in the Supreme Court,
Bonnell filed a motion for leave to file a motion for a new trial under Crim.R. 33(B).
The State subsequently filed a brief in opposition. This Court stayed any ruling on
Bonnell's motion while Bonnell’s appeal remained pending in the Supreme Court
because that appeal divested this Court of jurisdiction to act in Bonnell's case.
CONCLUSIONS OF LAW
\

2

A-32
(

THE LEGAL STANDARD FOR THE GRANTING OF A MOTION
FOR LEAVE TO FILE A MOTION FOR A NEW TRIAL
8. Crim.R. 33(B) requires that a motion for a new trial based on "newly discovered
evidence shall be filed within one hundred twenty days after the day upon which the
verdict was rendered[.]" Because it is now more than 120 days after the verdict in
this case, Bonnell must obtain leave to file his motion for a new trial.
9. “The only issue before the trial court in ruling on a motion for leave to file is whether
the defendant was unavoidably prevented in filing a timely motion for a new trial.”

State v. Dawson, 7th Dist. Mahoning No. 09 MA 209,2011-Ohio-2773, If 21. To obtain
leave, the defendant must prove "by clear and convincing proof that the defendant
was unavoidably prevented from filing his motion for a new trial" within 120 days of
the verdict as allowed under Crim.R. 33(B). Id.
10. "[A] party is unavoidably prevented from filing a motion for new trial if the party had
no knowledge of the existence of the ground supporting the motion for new trial and
could not have learned of the existence of that ground within the time prescribed for
filing the motion for new trial in the exercise of reasonable diligence.” State v. Walden,
19 Ohio App. 3d 141,145-46, 483 N.E.2d 859 (10th Dist.1984). If the defendant fails
to meet this burden, "[r]es judicata bars all subsequent motions seeking a new trial
that are based on claims that were brought or could have been brought on direct
appeal or in prior motions filed under Crim.R. 33." State v. Blalock, 8th Dist. Cuyahoga
No. 104773,

2017-Ohio-2658, If 36.

BONNELL HAS FAILED TO SHOW HE WAS UNAVOIDABLY PREVENTED
FROM DISCOVERY OF THE EVIDENCE IN QUESTION

A-33

11. This Court first finds that Bonnell has failed to demonstrate that he was unavoidably
prevented from timely filing his motion for a new trial. The evidence upon which
Bonnell now relies was available to Bonnell for many years before the filing of his
motion, and indeed, most of it has been available since the time of his trial in 1988.
12. With respect to the affidavit of Shirley Hatch, the Court finds that Bonnell has failed
to demonstrate the reasons for his extreme delay in obtaining the affidavit. "The
phrases 'unavoidably prevented' and ‘clear and convincing proof do not allow one to
claim that evidence was undiscoverable simply because affidavits were not obtained
sooner."

State v. Fortson, 8th Dist. Cuyahoga No. 82545, 2003-Ohio-5387, Tf 11.

Rather, "the use of an affidavit signed outside Crim.R. 33(B)'s time limit that fails to
offer any reason why it could not have been obtained sooner is not adequate to show
by clear and convincing proof that the movant was unavoidably prevented from
obtaining the evidence within the prescribed time period.” State v. Shakoor, 7th Dist.
Mahoning No. 10 MA 64, 2010-Ohio-6386, If 21.

Neither Hatch's affidavit nor

Bonnell's motion for leave contains any sufficient explanation as to why Bonnell
waited 30 years to obtain the affidavit and provide it to this Court.
13. With respect to the evidence that Bonnell seeks for DNA testing, the record is clear
that Bonnell has been aware since at least 1995 that the evidence in question was not
preserved.
14. In 1995, Bonnell filed a petition for postconviction relief. In his third claim for relief,
Bonnell argued that the State failed to collect or preserve the following:
a.
b.
c.
id.

Blood droppings from the back porch,
Blood droppings from the back porch railing,
Vomit found near the victim's body,
Crime scene fingerprints,

A-34

/

-n e. Foreign substances on Bonnell's hands,
f. The contents of Bonnell's car,
g. Substances on Bonnell’s pants.
Petition to Vacate or Set Aside Judgment and/or Sentence, filed 3/16/1995, p. 6-7.
15. In the State's response, the State argued: "Applying Ohio law to the case at hand, it is
clear that Defendant's rights were not violated if blood samples, vomit, fingerprints,
and other miscellaneous materials were not preserved.” State’s Motion for Summary
Judgment, p. 21.
16. This Court, in denying Bonnell's petition, specifically rejected this claim:
"It has been held that it is not a due process violation if specimens or
samples were destroyed in the normal course of business and in good
faith, see California v. Trombetta (1984), 467 U.S. 478; State v.
Thompson (1987), 33 Ohio St.3d 1; State v. Sampson (1987), 36 Ohio
App.3d 166; and State v. Purdon (1985), 24 Ohio App.3d 217. A review
of the facts fails to show that the State acted in bad faith in preserving
the evidence in this case. Accordingly, Petitioner's third Claim for Relief
lacks merit”

See Findings of Fact and Conclusions of Law, filed 10/17/1995, U 8.
17. Bonnell appealed this Court's decision to the Eighth District. In his brief, Bonnell
again argued that "[t]he State failed to preserve the scene of the homicide and secure
the exculpatory evidence.” Consolidated Brief of Appellant, filed 1/9/1998, p. 33.
18. The Eighth District affirmed this Court's rejection of Bonnell's claim:
"The fact that blood was found on the back porch hand railing and on a
green pillow on the back porch is not material. Birmingham had
testified that he witnessed the defendant punching the victim and that
blood was all over the place. He then picked up the defendant and
threw him out the back door onto the back porch. (Tr. 785-786, 921,
923,928,938). It is conceivable that the blood was transferred to these
areas by the defendant. Therefore, since there is no reasonable
probability that this evidence would have affected the outcome of the
trial, it was not material."

r

A-35

State v. Bonnell, 8th Dist. Cuyahoga Nos. 69835 and 73177, 1998 Ohio App. LEXIS
3943, *17 (Aug. 27,1998].
19. In 2000, Bonnell filed a petition for a writ of habeas corpus in the United States
District Court for the Northern District of Ohio. Bonnell argued in his fourth ground
for relief that his "conviction and sentence of death should be set aside because the
state failed to preserve exculpatory evidence from the crime scene."

Bonnell v.

Mitchell, 301 F.Supp.2d 698, 719 (N.D.Ohio 2004), citing Arizona v. Youngblood, 488
U.S. 51,109 S. Ct. 333,102 L.Ed.2d 281 (1988).
20. The federal district court - again assuming that the evidence had not been preserved
- rejected Bonnell's Youngblood claim. The court found both that Bonnell failed to
,

show that the State acted in bad faith, and that "Bonnell has failed to establish that
l

the unpreserved or untested evidence is exculpatory." Id. at 729-730.
21. In 2004, Bonnell filed his first application for postconviction DNA testing. See docket
entry, 10/29/2004. Bonnell sought testing of the following:
a.
b.
c.
d.
e.
f.
g.

vomit found in the kitchen,
blood from his vehicle,
hair(s) on a green pillow,
plastic bags for gunshot residue,
any blood from the back stairs,
any blood from the back stairwell,
any blood from the railing of the stairs,
h. testing of any swabs or slides taken from Bonnell's hands.
In response, the State filed a Report pursuant to R.C. 2953.75(B) stating that it had
"conducted a search and has been unable to locate any of the items defendant has
requested to be tested." Prosecuting Attorney’s Report, filed 8/30/2005, p. 2. The
State further noted: "Indeed, as the State's objection to DNA testing details, Bonnell

A-36

has argued, and the Courts have recognized for the past ten years [,] that this evidence
does not exist." Id.
22. The State also filed a brief in opposition to Bonnell's motion for DNA testing. In that
motion, the State wrote: "It should be no surprise that the evidence Bonnell seeks to
have tested does not exist. In fact[,] for the past ten years [,] he has litigated a claim
based on the fact that certain evidence was not collected or preserved." Prosecuting
Attorney’s Brief in Opposition to Inmate's. Application for DNA Testing, filed
8/30/2005, p. 6.
23. This Court denied Bonnell's first application for DNA testing in 2005. In doing so, this
Court found at that time that the evidence in question was not preserved for testing:
"As explained in the prosecutor’s report, the State has searched its own
files as well as contacted the homicide unit and the Cleveland Police
Department as well as the Trace Evidence department of the Cuyahoga
County Coroner's OfficeQ and has learned that none of the evidence
requested by Bonnell exists. Consequently, no parent sample exists
with which to do a DNA comparison."
Findings of Fact and Conclusions of Law, issued 10/21/2005, at p. 10.
24. All of this makes clear that Bonnell has been aware since at least 1995 that the
physical evidence in his case was not preserved. The status quo has not changed.
Bonnell has thus failed to demonstrate that he was unavoidably prevented from the
discovery of the basis for this claim.
25. This Court also finds that, even if Bonnell was unable to present this evidence within
120 days of the verdict, he also failed to act within a reasonable amount of time after
that period in filing his motion for leave.
26. "Crim.R. 33 does not set forth any specific time strictures as to when a motion for new
trial may be filed after unavoidable prevention has been found. However, 'case law

A-37

has adopted a reasonableness standard.'" State v. Elersic, 11th Dist. Lake No. 2007-L104, 2008-0hio-2121, 1f 20, quoting State v. Griffith, 11th Dist. Trumbull No. 2005-T0038, 2006-Ohio-2935, Tf 15. See also State v. Stansberry, 8th Dist. Cuyahoga No.
71004,1997 Ohio App. LEXIS 4561, *9 (Oct. 9,1997):
.

"Without some standard of reasonableness in filing a motion for leave
to file a motion for new trial, a defendant could wait before filing his
motion in the hope that witnesses would be unavailable or no longer
remember the events clearly, if at all, or that evidence might disappear.
The burden to the state to retry the case might be too great with the
passage of time. A defendant may not bide his time in the hope of
receiving a new trial at which most of the evidence against him is no
longer available."

"As a result, a trial court may require a party to file his Crim.R. 33 motion within a
reasonable time after he discovers the evidence." Elersic, If 20. The trial court must
determine whether any undue delay "was reasonable under the circumstances or that
the defendant has adequately explained the reason for the delay.” Stansberry, at *9.
27. Bonnell has not shown that he was at all unavoidably prevented from discovery of the
facts on which he now relies. But even assuming Bonnell could not have brought
these claims within 120 days of the verdict, the record reveals that Bonnell did not
bring his motion within a reasonable amount of time after the evidence was
unquestionably available to him.

For both reasons, this Court denies Bonnell's

request for leave to file his untimely motion for a new trial.
RES JUDICATA BARS BONNELL’S UNDERLYING CLAIMS
28. This Court further finds that even if it were to grant leave in this case, res judicata
would bar Bonnell's claims. Under the doctrine of res judicata, a defendant is barred
from raising an issue in a petition for postconviction relief if the defendant raised, or
f

could have raised, the issue either at trial or on direct appeal. See State v. Szefcyk, 77

A-38

Ohio St.3d 93, 96, 671 N.E.2d 233 (1996).

Res judicata "not only bars claims that

could or should have been brought at trial or on direct appeal, but also claims that
could or should have been brought in a first petition for post-conviction relief.” State

v. Turner, 10th Dist. Franklin No. 06AP-876, 2007-Ohio-1468,

12.

29. With respect to Shirley Hatch's affidavit, Bonnell raised the same issues in his
postconviction petition in 1995. The Eighth District rejected these arguments: "Minor
inconsistencies which may impeach the accuracy of a witness' recollection of a
drunken traumatic episode do not warrant grounds for overturning a murder
verdict." State v. Bonnell, 8th Dist. Cuyahoga Nos. 69835 and 73177,1998 Ohio App.
LEXIS 3943, *17 (Aug. 27,1998). "The defendant's list of the other minutiae to which
Hatch inconsistently testified amounted to immaterial details surrounding the event.
As stated before, even a cursory review of the evidence displays its immateriality.”

Id., *16.
30. With respect to Bonnell's Youngblood claim, as explained above, both the Eighth
District and the federal district court have previously rejected this argument. As such,
res judicata bars both of Bonnell’s claims.
THE LEGAL STANDARD FOR A MOTION FOR A NEW TRIAL
31. This Court finds that even if this Court were to grant Bonnell leave to file his motion
for a new trial, and even if res judicata did not bar consideration of Bonnell's claims,
Bonnell's motion fails to establish substantive grounds on which a new trial should
be granted. Crim.R. 33(A)(6) provides that a new trial may be granted on motion of
the defendant "[w]hen new evidence material to the defense is discovered, which the
defendant could not with reasonable diligence have discovered and produced at the

A-39

trial.” The Supreme Court of Ohio has outlined a six-part test that a defendant must
meet to obtain a new trial on the grounds of newly-discovered evidence.

The

defendant must show that the new evidence:
(1) discloses a strong probability that it will change the result if a new
trial is granted,
(2) has been discovered since the trial,
(3) is such as could not in the exercise of due diligence have been
discovered before the trial,
(4) is material to the issues,
c

(5) is not merely cumulative to former evidence, and
(6) does not merely impeach or contradict the former evidence.

State v. Petro, 148 Ohio St. 505, 76 N.E.2d 370, at syllabus (1947).
32. Where a defendant alleges that the State suppressed evidence in violation of Brady v.
■>
Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L.Ed.2d 215 (1963), however, this Court
conducts "a due process analysis rather than an abuse of discretion test because the
issue on review concerned appellant's] due process right to a fair trial [.]" State v.

Johnston, 39 Ohio St.3d 48, 60, 529 N.E.2d 898 (1988). If Bonnell establishes a Brady
violation, this Court then applies the federal Brady test, under which a defendant must
satisfy a lower standard of showing a "reasonable probability" of a different result.

State v. Siller, 8th Dist. Cuyahoga No. 90865, 2009-Ohio-2874, If 45.
SHIRLEY HATCH’S 2017 AFFIDAVIT DOES NOT
ESTABLISH GROUNDS FOR A NEW TRIAL
33. Hatch's 2017 affidavit does not materially differ from her 1988 trial testimony. Hatch
avers in her affidavit that the shooter was wearing a shiny red jacket with writing on
the back; that he was taller than the victim; that he had long hair; that she and Ed

A-40

Birmingham were both drinking that night; that she knew "Peanut" (Bonnell) before
the shooting; that she did not immediately know who the shooter was at the time of
the murder; and that she recognized Bonnell as the shooter after she saw his picture
in the newspaper the next day. As the State documents on pages 26-28 of its response,
almost all of this is consistent with Hatch's testimony at trial in 1988. The court
further notes that Hatch does not recant her identification of Bonnell as the shooter
in her affidavit. With respect to the minor variations between Hatch's 2017 affidavit
>
and her 1988 testimony, the Court grants more weight to Hatch’s, trial testimony,
given that it was significantly nearer in time to the incident.
34. This Court further finds that even if it were to grant Hatch's 2017 affidavit full weight,
that affidavit would still fail to establish a "strong probability" of a different result at
trial as required under Crim.R. 33(A)(6). As both the Supreme Court of Ohio and the
Sixth Circuit noted, the evidence of Bonnell's guilt was overwhelming. That evidence
included the following:
a.

Edward Birmingham, Bunner's other roommate, testified that immediately
after the shooting, he saw Bonnell on top of Bunner’s body striking Bunner in
the face.

b. At approximately 3:40 a.m., shortly after the shooting, two Cleveland Police
Officers saw a blue car being driven backwards on the street near the victim's
\
apartment with its headlights off. The officers attempted to stop the car, and
a high-speed chase ensued. The chase ended when the blue car crashed into a
funeral chapel. The officers immediately removed the driver from the vehicle

A-41

and placed him on the ground. Both officers testified at trial that Bonnell was
the driver and sole occupant of the blue car.
c.

Both Hatch and Birmingham immediately provided officers with a description
of the shooter that the officers recognized as being consistent with Bonnell.

d. At the hospital later that night, Birmingham identified Bonnell as the shooter.
e.

Police found a gray and maroon ski jacket inside Bonnell’s car after the crash.
Both Hatch and Birmingham described the shooter as wearing a gray and
maroon ski jacket.

f.

Police found a .25 caliber Tanfoglio handgun, later identified as Bonnell's, on
the street along the route of the chase. Test casings fired from the gun matched
spent bullet casings found at the scene, and the test bullets fired from the gun
were consistent with the bullets removed from Bonnell's body.

g. Bonnell's own alibi witness, Joey Popil, contradicted Bonnell’s story as to what
happened that night, identifying Bonnell as the man driving the blue 1980
Chevrolet Malibu, wearing the gray and maroon jacket, and in possession of
the .25 caliber Tanfoglio handgun.
h. DNA testing done in by the DNA Diagnostics Center (DDC) in 2009 revealed
that the victim's blood was on Bonnell's jacket in five separate places.
Nothing in Bonnell’s motion diminishes the weight of any of this evidence, nor
provides this Court with any reason to disregard those settled facts. There is thus no
probability at all, let alone a "strong probability," of a different result at trial. Crim.R.
33(A)(6).
BONNELL'S YOUNGBLOOD CLAIM FAILS TO ESTABLISH EITHER
BAD FAITH BY THE STATE OR PREJUDICE TO BONNELL

A-42

35. This Court also finds Bonnell's Youngblood claim to be without merit. Youngblood
does not impose on the police an "undifferentiated and absolute duty to retain and to
i
preserve all material that might be of conceivable evidentiary significance in a

particular prosecution." Arizona v. Youngblood, 488 U.S. at 58, 109 S. Ct. 333, 102
L.Ed.2d 281. Under the Constitution, the State’s duty to preserve evidence is "limited
to evidence that might be expected to play a significant role in the suspect’s defense." -

California v. Trombetta, 467 U.S. 479,488,104 S. Ct. 2528, 81 L. Ed. 2d 413 (1984).
36. To determine if the failure to preserve evidence violates a defendant's right to due
process, courts divide evidence into two categories: (1) evidence that is "materially
exculpatory," or (2) evidence that is "potentially useful." State v. Geeslin, 116 Ohio
St.3d 252, 2007-Ohio-5239, 878 N.E.2d 1, If 10.

For evidence to be considered

"materially exculpatory," it "must possess an exculpatory value that was apparent
before the evidence was destroyedf.]" Trombetta at 489.

If the evidence is merely

"potentially useful," however, its consumption does not constitute a denial of due
process "unless a criminal defendant can show bad faith on the part of the policef.]"

Youngblood at 57. Absent such a showing of bad faith, the consumption of evidence
that is only "potentially useful" does not constitute a denial of due process. Id.
37. Applying this standard, the evidence in this case falls within the category of
/
"potentially useful." The Supreme Court in Youngblood defined "potentially useful”
evidence as "evidentiary material of which no more can be said than that it could have
been subjected to tests, the results of which might have exonerated the defendant."

Youngblood at 57. Here, Bonnell argues that DNA testing on each item might yield
exculpatory evidence in the form of a DNA result that excludes Bonnell. At the same

A-43

time, it is equally likely that additional testing "might have proved Bonnell's presence
at the apartment and involvement in the murder.” Bonnell v. Mitchell, 301 F.Supp.2d
698, 730 (N.D.Ohio 2004]. The value of that evidence therefore depends upon the
results of hypothetical future DNA testing. This is the very definition of "potentially
useful" evidence.
38. As such, Bonnell is required to show bad faith. "Bad faith implies more than bad
judgment or negligence; instead, it ‘imports a dishonest purpose, moral obliquity,
conscious wrongdoing, breach of a known duty through some ulterior motive or ill
will'partaking of the nature of fraud. It also embraces actual intent to mislead or
deceive another." State v. Dunn, 9th Dist. Wayne No. 03CA0037, 2004-Ohio-2249, ^
63, quoting Hoskins v. Aetna Life Ins. Co., 6 Ohio St.3d 272, 276, 452 N.E.2d 1315
(1983].

This Court’s "inquiry into bad faith ‘must necessarily turn on the

[government’s] knowledge of the exculpatory value of the evidence at the time it was
lost or destroyed.”’ United States v. Bohl, 25 F.3d 904, 911 (10th Cir.1994], quoting

Youngblood at 56 n*. Bonnell must therefore show that the State was aware prior to
1995 (when Bonnell first litigated his Youngblood claim] of the alleged exculpatory
value of the items he now identifies.
39. This Court finds that Bonnell has failed to show any bad faith by the State. There is
no evidence that the State was aware prior to 1995 that any of the items in question
had any potential exculpatory value to them. There is no evidence that anything that
occurred in this case was done contrary to the Cleveland Police Department’s normal
practice at the time. Nor is there any evidence that the State purposefully destroyed
any evidence to inhibit Bonnell’s defense. Without any such evidence, this Court gives

A-44

«

•
/
no weight to Bonnell's claim of bad faith. A court "cannot infer bad faith from the
✓
mere act of its destruction.” D'Ambrosio v. Bagley, N.D. Ohio No. 1:00 CV 2521, 2006
U.S. Dist. LEXIS 12794, *162 (Mar. 24, 2006); see also United States v. Taylor, D.D.C.
No. 17-129, 2018 U.S. Dist. LEXIS 97845, *12 (June 12, 2018) ("bad faith cannot be
inferred from the mere act of nonpreservation itself").
40. This Court further notes that it previously found that the State did not act in bad faith
when it denied Bonnell's postconviction petition in 1995: "A review of the facts fails
to show that the State acted in bad faith in preserving the evidence in this case.
Accordingly, Petitioner's third Claim for Relief lacks merit." Findings of Fact and
Conclusions of Law, filed 10/17/1995, Tf 8. Res judicata applies "where an issue is
litigated that has been 'actually and necessarily litigated and determined in a prior action.'"

Ameigh v. Baycliffs Corp., 81 Ohio St.3d 247, 249, 690 N.E.2d 872 (1998), quoting Krahn v.
Kinney, 43 Ohio St 3d 103,107, 538 N.E.2d 1058 (1989).
41. Finally, this Court finds that Bonnell cannot establish prejudice for his Youngblood
claim for two reasons. First, the Supreme Court of Ohio held in Bonnell’s 2018 appeal
of this Court's denial of his application for DNA testing that additional DNA testing on
the items in question "would not have changed the outcome of the trial." State v.

Bonnell, Slip Opinion No. 2018-0hio-4069, U 21. The Supreme Court found that
Bonnell failed "to show that DNA testing, if performed, would yield a result that would
be outcome determinative.” Id., 1J25.
42. Second, even if the evidence could be located, Ohio's postconviction DNA testing
statute prohibits this Court from considering any additional requests for DNA testing
in this case.

R.C. 2953.72(A)(7) provides that "if the court rejects an eligible

A-45

offender's application for DNA testing because the offender does not satisfy the
i

acceptance criteria described in division (A)(4) of this section, the court will not
accept or consider subsequent applications!)]"

This Court rejected Bonnell’s

application for DNA testing in 2017. The Supreme Court has since affirmed that
decision.

As a result, this Court has no jurisdiction to consider any successive

application for DNA testing that Bonnell may file in the future.
CONCLUSION
43. For the foregoing reasons, this Court hereby denies Bonnell's motion for leave to file
a motion for a new trial.
IT IS SO ORDpRpr>
DATE:
JUE
Cuyahoga County Court of Common Pleas

Pursuant tq Civ.R. 58(B), the Clerk of Courts is hereby ordered to send copies of the foregoing
to the following parties and its date of entry upon the journal:
Kimberly Rigby, Officer of the Ohio Public Defender, The Midland Building, 250 East
Broad Street, Suite 1400, Columbus, Ohio 43215.
Kandra Roberts, Officer of the Ohio Public Defender, The Midland Building, 250 East
Broad Street, Suite 1400, Columbus, Ohio 43215.
Christopher D. Schroeder, Office of the Cuyahoga County Prosecutor, 1200 Ontario
Street, 8th floor, Cleveland, Ohio 44113.

A-46

EXHIBIT

E-1

A-47

APPENDIX E

A-48

A-49

A-50

EXHIBIT

E-4

A-51

A-52

A-53

A-54

A-55

A-56

EXHIBIT

E-5

A-57

A-58

EXHIBIT

E-6

A-59

A-60

EXHIBIT

E-7

A-61

EXHIBIT

E-8

A-62

A-63

EXHIBIT

E-9
DECLARATION OF SHIRLEY MARIE HASSELL
I, Shirley Marie Hassell, pursuant to the provision of 28 U.S.C.
1746(2), declare as follows:
1.

I am over the age of 18, am of sound mind, and am competent to testify
regarding all the matters below.

2.

At the time of trial, I went by the name Shirley Hatch.

3.

I left Cleveland many years ago.

4.

I recall the evening and early morning of the crime.

5.

I do not remember everything, but I do remember some details clearly.

6.

I remember the assailant wearing a reddish shiny jacket with writing
on the back. It was made of a satiny material, a windbreaker type with
lining Those satiny colorful jackets were popular back then.

7:

The red shinny jacket, which has been shown to me, with the writing
"Devil's Den" on the back resembles the jacket that the murderer wore.

8.

I remember clearly that the assailant was taller than the victim.

9.

The assailant had hair to the bottom of his neck.

10.

I was never shown any line-ups or photo arrays by the Cleveland
Police Department. I wish that they had.

11.

Edward Birmingham was also present during the crime. I knew him
as "Eddie."

1

A-64

12.

I had known Eddie for four years and had been living with him for six
to seven months.

13.

Eddie was an alcoholic and drug user. He would drink from the
moment he woke up until he passed out, every night.

14.

I consumed alcohol with Eddie that night.

15.

Eddie had a glass eye.

16.

I do not know what time Eddie went to bed on the night of the incident.
He would drink until he passed out regularly. When he woke up in the
mornings he started drinking vodka. He kept beer in the refrigerator
as well as in coolers located in the living room and in the kitchen. On
the night of the incident, I shook him and yelled at him to wake up and
he did not wake up. He finally woke up when I slapped him in the face.

17.

Eddie took pills, and used cocaine and marijuana regularly. He went to
know this because the same gentleman
named Pete would pick him up at the same time every day and take
him to the clinic for his dose. It is highly likely that Eddie had also
consumed drugs that night.

18.

Eddie was gentle and kind I have never seen Eddie be violent or
protect himself from attacks. I saw Eddie bitch-slapped by someone,
and he just sat there and took it.

19.

Eddie was small in stature and very thin. I cannot even imagine him
being able to pull the assailant off of the victim. Eddie would have
2

A-65

gotten his ass kicked. He was scared of everybody. I believe that he
would say that he did so in order to make himself look better.
20.

I know that he did not throw the perpetrator down the back stairs
because the perpetrator was standing behind Eddie after I made the
911 call at the neighbor's house. After the call, I looked back into
Eddie's apartment, and saw the perpetrator behind Eddie and yelled at
Eddie that the guy was behind him When Ray Campbell entered the
apartment, the assailant left. He must have left through the back door
because we were standing by the front door. The back door was open
during the entire incident.

21.

The back porch light was out in the apartment. Eddie was cheap and
he did not replace lightbulbs, this is why I recall this detail.

22.

I knew Peanut before this all happened.

23.

I was not clear as to who the assailant was at the time of the incident
or during my initial interviews and I did not think that it was Peanut
until I saw his picture in the newspaper after his arrest.

I declare under penalty of perjury that the following is true and c( rect.

Dated:/72-42-/7

3

A-66

EXHIBIT

A-67

E-10

A-68

